<html>
<title> - FURTHER HUMAN RIGHTS VIOLATIONS IN CASTRO'S CUBA: THE CONTINUED ABUSE OF POLITICAL PRISONERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   FURTHER HUMAN RIGHTS VIOLATIONS IN 
                 CASTRO'S CUBA: THE CONTINUED ABUSE OF 
                          POLITICAL PRISONERS 

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                AND THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2012

                               __________

                           Serial No. 112-183

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-877 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TOM MARINO, Pennsylvania             KAREN BASS, California
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
ROBERT TURNER, New York

                                 ------                                

                 Subcommittee on the Western Hemisphere

                     CONNIE MACK, Florida, Chairman
MICHAEL T. McCAUL, Texas             ELIOT L. ENGEL, New York
JEAN SCHMIDT, Ohio                   ALBIO SIRES, New Jersey
DAVID RIVERA, Florida                ENI F.H. FALEOMAVAEGA, American 
CHRISTOPHER H. SMITH, New Jersey         Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana...............................................     7
Oscar Elias Biscet, M.D., human rights advocate, former Cuban 
  political prisoner.............................................    12
Mr. Normando Hernandez Gonzalez, independent journalist, former 
  political prisoner--Group of 75................................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dan Burton: Prepared statement.....................     9
Oscar Elias Biscet, M.D.: Prepared statement.....................    15
Mr. Normando Hernandez Gonzalez: Prepared statement..............    25

                                APPENDIX

Hearing notice...................................................    34
Hearing minutes..................................................    35
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on the Western 
  Hemisphere: Prepared statement.................................    36
The Honorable Ann Marie Buerkle, a Representative in Congress 
  from the State of New York:
  Prepared statement.............................................    37
  Questions submitted for the record.............................    38
  Responses from Mr. Normando Hernandez Gonzalez to questions 
    submitted for the record.....................................    39


 FURTHER HUMAN RIGHTS VIOLATIONS IN CASTRO'S CUBA: THE CONTINUED ABUSE 
                         OF POLITICAL PRISONERS

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2012

          House of Representatives,        
     Subcommittee on Africa, Global Health,        
                          and Human Rights, and    
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the Subcommittee on Africa, 
Global Health, and Human Rights) presiding.
    Mr. Smith. The subcommittees will come to order.
    I want to wish everyone a good afternoon and welcome to 
this joint hearing of the Subcommittee on Africa, Global 
Health, and Human Rights, as well as the Subcommittee on the 
Western Hemisphere, to focus on just one aspect, though a very 
troubling one, and that is of the overall abysmal human rights 
record of the dictatorship in Cuba.
    Today's hearing marks the beginning of a series of hearings 
on human rights in Cuba, and today we will be examining the 
ongoing violations of the human rights of Cuban political 
prisoners, from the arrest, prosecution, and persecution of 
political opponents of the Castro regime to the deplorable 
conditions of their imprisonment, to the terms under which they 
are released.
    The announcement of the release of some prisoners in late 
December, in conjunction with the release over the past 2 years 
of more than three dozen political prisoners, has been 
described as a public relations move designed to portray a 
loosening of Cuba's political repression of opponents. Those of 
us who have had the privilege of knowing and working with 
Cuba's human rights champions for decades, and having heard 
from them firsthand of the brutality of the Castro government, 
are not so easily persuaded or deceived that somehow things are 
improving.
    Cuba has been a totalitarian state, with the Cuban 
Communist Party as the sole legal political party for more than 
half a century. Upon his seizure of power in Cuba in 1959, 
Fidel Castro promised a return to constitutional rule and 
democratic elections with social reforms. However, Castro's 
control over the military and government structures allowed his 
regime to crush dissent, marginalize resistance leaders, and 
imprison or execute thousands of opponents.
    Between 1959 and 1962 alone, it is estimated that the 
Castro regime executed 3,200 people. Hundreds of thousands of 
Cubans fled an increasingly radical government. Those who 
remained in Cuba faced a repressive regime that denied them 
fundamental basic human rights.
    More than 50 years after Castro's assumption of power in 
Cuba, the U.S. Department of State's Human Rights Report on 
Cuba describes it as a government that still denies its 
citizens the right to change their government; that threatens, 
harasses, and beats its opponents through state security forces 
and government organized mobs; that sentences opponents to 
harsh and life threatening prison conditions; that arbitrarily 
detains human rights advocates and members of independent 
organizations and that selectively prosecutes perceived 
opponents and then denies them a fair trial.
    Cuba's political prisoners are held, together with the rest 
of the prison population, in substandard and profoundly 
unhealthy conditions where they face physical and sexual abuse. 
Most prisoners suffer from malnutrition and reside in 
overcrowded cells without appropriate medical attention. In 
fact, political prisoners face selective denial of medical 
care.
    Cuban prisons fail to segregate those held in pre-trial 
detention from long-term violent inmates, and minors are often 
mixed in with adults. Such are the conditions opponents of 
Castro's regime have faced over the years, and some of them 
have faced it for decades.
    I would note that we have with us today in the audience a 
man who spent 22 years in Castro's prisons. Mr. Guzman, if you 
wouldn't mind just standing and being recognized and thanked.
    [Applause.]
    I would also point out to you another man who I have gotten 
to know over the years, Armando Valladares, who unfortunately 
couldn't join us here today, but will appear at a future 
hearing. He was a Cuban postal bank employee who was arrested 
for refusing to display a sign on his desk that promoted 
communism. Mr. Valladares was imprisoned in 1960 at the age of 
23 and spent 22 years in prison. Like many freed political 
prisoners, Mr. Valladares moved to the United States.
    In 1988, President Ronald Reagan appointed him to serve as 
the United States Ambassador to the U.N. Commission on Human 
Rights, a position in which he served for 2 years. I met with 
Ambassador Valladares in Geneva when he succeeded in bringing 
Cuba before that Commission for human rights violations and 
authorized a U.N. fact-finding trip to Cuba to investigate 
Cuban prisons.
    I will never forget; assurances were given to everyone that 
anyone who came forward would not be retaliated against, and to 
a person everyone who came forward was retaliated against.
    I have read Mr. Valladares' memoir; it is called ``Against 
All Hope.'' I actually read it twice; it is a book that 
chronicles his experiences and that of others in Cuba's gulags.
    Mr. Valladares describes the systematic use of torture, 
cruelty, and degrading treatment by Cuban prison guards, yet 
like so many other heroic dissidents, he persisted and he 
overcame. I remember when he talked about how they actually 
immersed Cuban dissidents in excrement, put them into human 
waste, which caused ear infections, nose infections, eye 
infections. It was not only degrading; it was so unhealthy that 
many got very, very sick from it.
    Today our surprise witness will be a brilliant 
humanitarian, Dr. Oscar Elias Biscet. A medical doctor and 
courageous human rights advocate, Dr. Biscet was one of more 
than two dozen dissidents who was arrested and detained by 
Cuban police back in August 1999 for organizing meetings on 
behalf of human rights.
    He was released after 5 days but was rearrested three more 
times. The second time he was arrested, later in 1999, he spent 
3 years in prison. His third arrest in December 2002 resulted 
in a beating, but not imprisonment. Upon his fourth arrest, in 
March 2003, he was sentenced to 25 years in prison.
    Along with more than 50 other dissidents, Dr. Biscet was 
released in March 2011 with the help of the Catholic Church. He 
has courageously remained in Cuba where he continues to 
advocate for human rights. For his extraordinary bravery and 
commitment to freedom for the Cuban people, many of us have 
twice recognized and recommended him, Dr. Biscet, for the Nobel 
Peace Prize. Dr. Biscet is in Cuba and will be with us shortly 
by way of a phone hook-up.
    Other political prisoners have not had the ability to 
choose where they will live following their release.
    Normando Hernandez Gonzalez, an independent writer and 
journalist, was arrested in March 2003, along with 74 other 
dissidents in Camaguey and was sentenced to 25 years in prison. 
As a result of his serious abuse in prison, Mr. Hernandez 
eventually was diagnosed with several diseases of the digestive 
system, and later tuberculosis.
    Due to his deteriorating medical condition, Mr. Hernandez 
was released from prison in July 2010 and taken to the Havana 
airport where he was briefly reunited with his wife and 
daughter before being forced to board an overnight flight to 
Spain. He later emigrated to Miami, where he currently resides. 
We will hear from him momentarily.
    I extend the gratitude of the subcommittee, to our 
distinguished witnesses for joining us today, and we will begin 
our testimony with Congressman Dan Burton. He is now chairman 
of the Europe and Eurasia subcommittee, and I will introduce 
him properly in a moment.
    He has always been a leader on human rights in Cuba, and 
everywhere else, but actually was the author of important 
legislation, which I know he will speak to, several years ago. 
And so I will get to that in a moment, but thank you, Chairman 
Burton, for being here.
    I would like to now yield to my good friend and colleague 
Albio Sires for any opening comments he might have.
    Mr. Sires. Thank you, Chairman Smith, Chairman Mack, for 
holding this hearing. It is crucial that my colleagues and I in 
Congress do whatever we can to draw attention to the brutal 
realities in Cuba.
    It is a privilege to have with us former political 
prisoners who can describe firsthand the oppressive nature of 
the Castro regime.
    Just weeks ago, another hero for freedom and democracy, 
Wilman Villar Mendoza, lost his life at the hands of Castro's 
thugs in Cuba. And the end of this month will mark the 2-year 
anniversary of the death of Orlando Zapata Tamayo. These men 
died fighting for basic human rights, the kind of rights that 
so many of us take for granted in this country.
    The Castro brothers are ruthless leaders with no regards 
for human life and have no interest in reform. While the United 
States has offered several concessions to Cuba in the last few 
years, we have only witnessed continued brutality on the 
island.
    You know, as someone who came from Cuba at the age of 11, 
my mind is still very clear on some of the things that my 
family went through, including having the military come into 
our house, take inventory of every item once you file for a 
visa to leave, including the military search in our house 
because my father was accused of having contraband in the 
house. And this was back in 1962. And I can go on and on with 
stories of neighbors that were taken in the middle of the 
night.
    So it is crucial for us to have a hearing to depict what 
these people do in Cuba. Somehow over the years there has been 
this romanticism with this revolution. You know, this 
revolution brought dictators--dictators for over 50 years. All 
these supposed changes that are happening are just window 
dressings. There hasn't been one substantive change in Cuba to 
bring democracy, or to allow the people to express their will.
    You read stories about the Ladies in White and the thugs 
that beat up on women just because they clamor for democracy, 
freedom, and for the health of the ones that are in jail.
    So, my colleagues, thank you very much for bringing 
attention to this situation. I want to personally compliment 
Congressman Burton. He has been in the forefront on our efforts 
to bring a change in Cuba for many, many years. And I am sorry 
that he is leaving, but he has really been a friend to our 
efforts, and thank you for being here.
    Thank you, Chairman, for being here.
    Mr. Smith. The gentlelady from Ohio, Ms. Schmidt.
    Ms. Schmidt. Thank you, Mr. Smith, for holding this. And 
thank you, Mr. Sires, for your personal testimony.
    You know, I was in Cuba in 2002, I think it was, on a trip 
from Ohio, a legal trip. And I saw firsthand the abusive nature 
of the Cuban regime. We were watched at each and every step 
along the way. We were not allowed to have really free 
discussion with the folks that we interacted with in Cuba.
    So from a personal perspective, I know that everything is 
guarded and watched. And I understand this is the phone call. 
We are going to take it?
    Mr. Smith. In a moment, yes.
    Ms. Schmidt. In a moment. Well, I will be very brief. I am 
very impressed with the level of people that we are having as--
--
    Mr. Smith. Please continue.
    Ms. Schmidt. I am very impressed with the witnesses that we 
are going to have today. Mr. Hernandez will testify today. The 
reward for your honesty, sir, was a life sentence, practically, 
in a Cuban prison, and we have already heard some of the 
torment that you continue to suffer because of the cruelty of 
that regime.
    Dr. Biscet will also testify via telephone and I understand 
that he is once again, because I signed the letter, being asked 
to be considered for a Nobel Peace Prize. Quite frankly, I 
think everyone that served under that regime and continues to 
shout for liberty and democracy in that corner of the world 
deserves recognition and a Peace Prize.
    Cuba retains its designation as a State Sponsor of 
Terrorism, and we in the United States need to recognize that. 
We need to understand that they are working in connection with 
Bolivia, Ecuador, Nicaragua, and Venezuela, all to subvert the 
democracy here in the Americas. We in the United States must 
understand that anything that we do that helps the Cuban regime 
monetarily will only hurt the Cuban citizens.
    In 2009, one of our American citizens, Alan Gross, was a 
USAID subcontractor. He was arrested because he was 
distributing communications equipment to Jewish communities in 
Cuba. Fourteen months after his arrest and incarceration, Mr. 
Gross was unfairly and unjustly charged, tried, and convicted. 
He is currently serving a 15-year sentence in what can only be 
described as the worst hole you can ever imagine.
    While this administration and our President has called for 
Mr. Gross' release, this administration has really done very 
little to make sure that that actually happens. Instead of 
aggressively pursuing his release, our administration is busily 
making concessions to Cuba and loosening travel and remittance 
restrictions. This must not happen.
    Instead of engaging to help the Castro regime, we should be 
engaging with the Cuban people and helping them become 
liberated citizens.
    I yield back my time.
    Mr. Smith. Ranking Member Engel.
    Mr. Engel. Thank you, Mr. Chairman, and thank you for 
holding this hearing. And I am glad that our two subcommittees 
are teaming up on this.
    Human rights is something that is very important, obviously 
important for obvious reasons. The United States has been the 
beacon of freedom throughout the world for many, many years. 
And when you look at countries that have been the opposite, 
unfortunately Cuba always comes to mind.
    You know, there are very few things that I remember when I 
was a boy that haven't changed much now that I am more mature. 
And one of them is the lack of human rights in Cuba. The 
tactics that the Cuban regime has used back in the 1960s are 
similar to the tactics that they use now with imprisonment and 
all kinds of other horror stories that we have heard through 
the years.
    And while dictators have come and gone and regimes have 
come and gone, in Cuba, unfortunately for its people, nothing 
has really changed. When we look and see--people said that once 
the Soviet Union fell, there would be freedom and change in 
Cuba as there were in so many of the Eastern European 
countries, we haven't seen any change at all. Anything we have 
seen is simply window dressing.
    So I am glad that we continue in the Congress to be 
vigilant and to focus attention on Cuba's terrible human rights 
policy.
    Mr. Gross, who many of us have been concerned--an American 
citizen--is languishing in a Cuban prison. And we, of course, 
have as our priority to get him out. But there are many other 
people, Cuban citizens as well, languishing in Cuban prisons. 
Their only hope is that we in the United States continue to 
shine a light on the tyranny that is happening. And one day we 
all hope that Cuba will be free. We know that will happen one 
day, and we hope we can make it sooner rather than later.
    With that, I yield back, and I thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Engel.
    Mr. Rivera, the gentleman from Florida.
    Mr. Rivera. Thank you so much, Mr. Chairman. Thank you for 
holding this important hearing, because it adds to the record 
that needs to be placed in the public mind-set regarding the 
reality that is Cuba today. And this reality of Cuba today did 
not start in recent months or years or even decades.
    This reality of a lack of human rights and civil liberties 
inside Cuba started in 1959 where Cuba's record of throwing 
people into prison, just because they are prisoners of 
conscience, began when thousands and thousands of political 
prisoners were put in jail by the Castro communist totalitarian 
dictatorship.
    Throughout the decade of the 1960s, throughout the decade 
of the 1970s, and it was not until, I would say, the mid and 
late 1980s, during the Reagan administration, when as you 
mentioned former U.S. Ambassador to the United Nations, Armando 
Valladares, was named to the post, where the tragedy that is 
the reality of Cuba really came to light in an international 
forum.
    And I recall you being there at the United Nations Human 
Rights Commission, along with Congressman Burton as well, and I 
also recall those condemnations on a multilateral basis from so 
many countries that were members of the United Nations Human 
Rights Commission, being ignored. And the request from the 
Human Rights Commission to send a special rapporteur into Cuba 
to investigate the human rights abuses were also ignored and 
rejected by the Castro dictatorship.
    And that happened throughout the decade of the 1990s where 
international organizations tried to go into Cuba and monitor 
and review the situation of human rights and were always 
rebuffed. Just recently even during this last decade, there 
have been several waves of repression across the island.
    We have had the Black Spring earlier in the decade, but 
even more recently, in the last couple of years, we have also 
seen yet another wave of repression and human rights abuses, 
which again demonstrate the complete lack of human rights and 
civil liberties inside Cuba.
    Some of those examples of abuse have been mentioned. People 
that have been on hunger strikes and have died on hunger 
strikes, sacrificed their liberty and actually sacrificed their 
lives, people like Orlando Zapata Tamayo, Wilman Villar 
Mendoza, Laura Pollan, who was one of the leaders of the Ladies 
in White, courageous, heroic women that peacefully demonstrate 
in support of human rights and civil liberties in Cuba that are 
summarily beaten and jailed inside Cuba.
    So that is why it is so important to make sure that we have 
hearings like this, and make sure that we have condemnations--
moral and otherwise--of what is going on inside Cuba. We need 
to have multilateral condemnations from the United Nations, the 
United Nations Human Rights Commission. We need to have 
unilateral condemnations.
    This administration needs to step up the focus and the 
effort to condemn Cuba, condemn the Castro dictatorship. I 
believe that has been quite lacking in recent years when we 
have all seen the cases of human rights abuses occurring inside 
Cuba.
    The community I represent, much like my friend from New 
Jersey, Albio Sires, is filled with examples--from decades ago 
and from more recent years, filled with examples of former 
political prisoners, men and women, many women, former 
political prisoners that were tortured, imprisoned, and that 
were prisoners of conscience.
    Today, inside Cuba many of these same people are fighting 
for the future of Cuba, and that future is represented by these 
brave human rights activists fighting inside Cuba, which is 
another reason it is so important to maintain the spotlight on 
human rights abuses in Cuba; to maintain and highlight heroes 
like Dr. Biscet, who we will be hearing from; to maintain the 
focus on cases like Alan Gross, that Congresswoman Schmidt 
mentioned earlier; and making sure that that demonstrates to 
the world a stark reminder of the lack of basic rights inside 
Cuba.
    So, again, Mr. Chairman, thank you so much for this 
hearing. Thank you for maintaining that spotlight. It is wholly 
justified, and hopefully more people throughout the United 
States and throughout the world will be listening.
    Mr. Smith. Mr. Rivera, thank you very much for your very 
eloquent statement.
    I would like to now introduce our first witness, and he is 
the man who is the author of the Cuban Liberty and Democratic 
Solidarity Act of 1996, and that is Chairman Dan Burton, who is 
now serving in his 15th term as a Member of the House from 
Indiana. He previously served in the Indiana House and Senate 
before coming to Congress in 1983.
    And the Helms-Burton Act, named after the two sponsors of 
that legislation, was truly remarkable and transformational. I 
want to thank him for his leadership on that, and I will yield 
to my good friend and colleague.

  STATEMENT OF THE HONORABLE DAN BURTON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Burton. Well, thank you, Mr. Chairman. I really 
appreciate your allowing me to testify. I am not going to be 
redundant. You have covered so much ground here, and you have 
so many extraordinary witnesses that are going to be 
testifying, I am going to limit my remarks. I will submit a 
statement for the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Burton. The reason we passed the Helms-Burton law was 
not just because of the persecution that was taking place on 
the island of Cuba but because the Castro government shot down 
three planes--the Brothers to the Rescue, who were sending 
messages to the people in Cuba by flying over and dropping 
leaflets talking about freedom and democracy and human rights. 
And when that happened it raised the concern of everybody in 
America, and we immediately said we have got to do something to 
put pressure on the Castro regime to bring about some positive 
change.
    We passed the Helms-Burton law, better known as the 
LIBERTAD Act, and it was a step in the right direction. The 
problem that we have is that the legislation has not been as 
enforced as it should have been. And for that we have a great 
deal of regret.
    I know Mr. Rivera, who worked with us back in those days 
when he was much younger--he is getting a little bit of gray 
hair now--and you, Mr. Chairman, and all of my colleagues up 
there were--I know you were very interested in that as well. We 
were concerned and we wanted to bring about some positive 
change.
    Unfortunately, we have not enforced, as I said, the Helms-
Burton law. The spread of communism is still a big threat. Back 
during the Reagan administration, we had the Reagan Doctrine, 
and most of the countries in Central and South America started 
moving toward democracy.
    Now, because of Chavez in Venezuela and Castro in Cuba, and 
a number of the other countries down there, we see a movement 
back toward the left and toward communism and toward 
repression. So the repression takes place not only in Cuba, but 
throughout many of the countries in Central and South America.
    The thing that bothers me a great deal is when people send 
remittances down to Cuba to help their families and their loved 
ones, the government of Fidel Castro benefits from that. And I 
think it is very unfortunate. Approximately 20 percent of all 
the remittances that go down there are given to the Fidel 
Castro government or the Raul Castro government, and they use 
that to further their ends in that country.
    So I think it is extremely important that we have hearings 
like this, that we point out the horrible things that are going 
on in Cuba and continue to go on.
    One of the things that I like to stress when I speak--and 
you have mentioned it before--Armando Valladares--is a book 
that he wrote about his prison experience. It is called 
``Against All Hope,'' and I think my colleagues have probably 
all read that. But for those of you that haven't, I would 
submit that it would be a great thing for you to take the time 
to read, because it really points out very clearly the 
horrible, horrible things that go on in those prisons down 
there due to the political prisoner situation.
    With that, Mr. Chairman, I want to thank you very much for 
having this hearing. My statement will be submitted for the 
record, and I look forward to hearing what your witnesses have 
to say today. And thank you very much for having this hearing.
    [The prepared statement of Mr. Burton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Chairman Burton, thank you so very much. Again, 
your legislation is legendary, and thank you for your 
authorship. It has made a huge difference.
    I would like to welcome you, if you would like to join the 
panel.
    Mr. Burton. Thank you.
    Mr. Smith. We would love to have you.
    I would like to now introduce Dr. Oscar Biscet, who, as 
stated earlier, is a Cuban physician and human rights advocate 
who has been imprisoned and tortured numerous times by the 
Castro regime. This extraordinary man of conscience has been 
unjustly called dangerous and a counterrevolutionary by the 
Castro regime, and labeled a prisoner of conscience by the 
international human rights community.
    In 1997, he founded the Lawton Foundation in Havana which 
works to secure human rights in Cuba and around the world. He 
has worked tirelessly for freedom in Cuba. And because of his 
work, my colleagues have nominated him--as a matter of fact, 
this time our distinguished Chairman Ileana Ros-Lehtinen has 
led an effort to nominate Dr. Biscet for the Nobel Peace Prize. 
We did it 2 years ago. It is time that he be recognized in Oslo 
for the tremendous work he has done.
    Despite being imprisoned at the time, Dr. Biscet received 
the Presidential Medal of Freedom from President Bush in 2007. 
Dr. Biscet was released from prison on March 11, 2011, and will 
be participating in this hearing by a telephone connection from 
the U.S. Interests Section in Havana.
    The floor is yours, Dr. Biscet.

 STATEMENT OF OSCAR ELIAS BISCET, M.D., HUMAN RIGHTS ADVOCATE, 
                FORMER CUBAN POLITICAL PRISONER

    Dr. Biscet. Good afternoon. I am Dr. Oscar Elias Biscet. I 
am a specialist in internal medicine, and I am the president of 
the Lawton Foundation for Human Rights, and I received the 
Presidential Medal of Freedom in 2007.
    I am giving a testimony in front of the House Committee on 
Foreign Affairs, Subcommittee on Africa, Global Health, and 
Human Rights. And under the presence of our Biblical God, this 
is solely the truth of what has happened.
    I express my deep gratitude for this invitation to the 
great defender of liberty to the Cuban people, Congresswoman 
Ileana Ros-Lehtinen, and I express my great admiration for the 
altruistic labor in the cause of the Cuban people to the Cuban-
American Congressman Mario Diaz-Balart, David Rivera, Albio 
Sires, Robert Menendez, and Marco Rubio.
    Many greetings to all of the great individuals that are 
gathered with us today. The Cuba in which I live in is a 
society full of fear. It has been directed by a totalitarian 
socialist regime since 1959. This regime is characteristically 
anti-American, anti-Semitic, and anti-Black. Its permanence in 
power is due to the use of terror and extreme police control 
over the citizens.
    The dictatorship of the Castro brothers commits systematic 
and flagrant violations against human rights for the Cuban 
people. The lack of basic freedom in my society motivated me to 
become a human rights activist and to attain these rights for 
the people of Cuba through non-violent resistance.
    The political police has beaten me, disfigured my face, and 
in another occasion broken my foot. These were things that were 
done through the orders of the dictatorship, and they were 
seeking to coerce me to stop my human rights activism through 
torture and cruel acts that are inhumane. The idea was to stop 
me from anything that I could do to defend human rights.
    In not gaining their objectives, they put me in prison for 
almost 12 years. Nevertheless, if these acts would have been 
done only against me, they would not have the important 
historical significance that they do. The great problem is that 
these horrible violations of human dignity are committed 
through the entire population of Cuba, and in general all of 
the people that are incarcerated.
    The penitentiary system in Cuba does not adhere to the 
regulations put forth by the United Nations for people who are 
imprisoned. In this system, I was very much tortured, but most 
of all the people that I know and my family were tortured. But 
the worst part is that there were three assassination attempts 
against me, two of which were hired out by the regime's police.
    Some of the tortures or cruel treatment or inhuman 
treatment that I observed or suffered in these prisons were 
people who were completely nude and had their hands in 
handcuffs and then put together with a handcuff at their feet. 
They were in this position for more than 12, and sometimes up 
to 24, hours. Individuals who were handcuffed with their hands 
over their head and the tip of their toes barely touching the 
floor, and the duration of this torture was the same 12-24 
hours.
    The use of taser guns as psychological and physical 
torture. For most of these tortures they would undress the 
prisoner collectively with any respect for human dignity. The 
negation of any medical attention to the individuals that were 
imprisoned. The existence of those individuals in prison have 
no human dignity at all.
    And many times there is no natural light, and in other 
times not even artificial light. There is no drinkable water, 
no ventilation, no place to use the restroom, and no ability to 
speak to anyone else.
    Many of these political prisoners are forced to suffer 
alongside prisoners who have actually committed real crimes, 
and this is used as a form of coercion to make them feel like 
they are criminals as well.
    In 1996, you approved the Law of Liberty and Democratic 
Solidarity with Cuba. This is a great political instrument that 
has been applied in solidarity with the Cuban people, looking 
for change to create liberty and democracy for the Cuban 
people. We are looking for these liberties and democracy for 
the Cuban people.
    The dictatorship of the Castro brothers has been a part of 
the most abhorrent global events. I will only make a few 
references. These are a few: Unconditional support for the 
imperialistic invasion in Czechoslovakia in 1968 and 
Afghanistan in 1979; also, in the 21st century, the 
expansionist invasion of Russia into Georgia; unlimited defense 
for the regimes of Milosevic, Hussein, and Ghadafi; training, 
both military and logistical, for the guerrillas in Colombia, 
and the presence of operational bases for the Muslim extremists 
of Hezbollah and Hamas in Cuba.
    If we continue this political indifference against the 
communist regime in Cuba, I fear that in a very short time we 
will have another missile crisis in the same style of October 
1962. However, the participants now would be Cuba, Venezuela, 
Iran, and the United States.
    Tomorrow we will celebrate, with great pride, the fourth 
anniversary of the freedom of Kosovo. Five years ago, you, the 
United States, promised firm support for their independence. 
You were so firm in this promise with love and honor that many 
countries united themselves in this cause, and you triumphed. 
This is the kind of support that I ask of you for my people, so 
that they can be free and sovereign.
    I wish the best to you, your families, and to the United 
States of America. Thank you very much.
    [The prepared statement of Dr. Biscet follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Biscet, thank you for your extraordinary 
courage. And to remind everyone in this room and those who will 
read this transcript--and that will be many--you are 
communicating to us from Cuba, having only recently been let 
out of prison, knowing that there are risks attendant to your 
speaking out, as you have done so courageously throughout your 
life.
    So just letting you know how in awe I am, and I know my 
colleagues are, of you. And I hope that the Cuban Interests 
Section, which I am sure is here in the room and taking notes, 
and the Castro regime, by extension, knows that we are all 
watching how you are treated, not just past and present, but 
going into the future.
    Just a couple of very quick questions, and I yield to my 
colleagues for any comments they might have. And I want to 
assure you, Dr. Biscet, that these committees and the Congress 
will continue--we will hold additional hearings. We are 
redoubling our efforts to bring scrutiny and life in combating 
these human rights abuses, as you called them, systematic and 
flagrant violations.
    We applaud your non-violent resistance, which is truly 
extraordinary.
    You have testified about the degrading treatment of 
stripping prisoners. I would note parenthetically that Cuba has 
been designated a Tier III country for human trafficking, both 
sex trafficking, and this, too, is a part of the perversion 
that is imposed upon people by the government, degrading 
treatment and perversion.
    You talked about political indifference, and that the 
island is full of fear. My hope would be--our hope would be--
that you might answer whether or not they have been indifferent 
as well--that the Organization for American States, the U.N., 
especially the Human Rights Council, the European Union, and 
even the International Criminal Court would investigate these 
crimes against humanity and take action.
    If you can, would you like to respond as to how well or 
poorly we are doing--Congress, the President, and those bodies 
I just mentioned? Are we politically indifferent?
    Dr. Biscet. We are very grateful for everything that the 
United States has done. We understand that the problem in Cuba 
is an internal problem with the regime, and that the 
international organizations are very, very different.
    We appreciate the work that has been done to help us, but 
the issues and the violations, the human rights violations in 
Cuba need to be expressed further to these international 
communities, because they seem not to be getting the point or 
understanding that this is really happening.
    The clear and classic example is that a lot of these 
countries have signed on to international instruments, but 
there is no way of enforcing them. So you have the classic case 
of Cuba who is a signer to many international treaties but 
doesn't uphold any of the human rights designations.
    Mr. Smith. Dr. Biscet, I have many questions, but I will 
only ask one more out of deference to my colleagues. Pope 
Benedict will visit Cuba on March 26 to 28. His mission is to 
evangelize, but he also speaks very strongly on behalf of human 
rights protections.
    It would be my and others' sincerest hope that he would 
meet with you and others who have been incarcerated and 
unjustly treated. What would you tell the Pope if you had the 
opportunity?
    Dr. Biscet. I would say to him that I would love for him to 
lobby for our freedom of speech and for a multi-party system, 
so that everyone can participate and be represented. We hope 
that his coming will bring great change to our country.
    [The telephone connection is lost.]
    Mr. Smith. We will continue to try to reestablish that 
contact.
    Did you want to comment at least on his testimony before 
asking some questions, if we get him back?
    Mr. Sires. Well, I think we have seen the testimony of a 
very courageous individual. And I think that people should 
think in terms of this man as a product of this revolution. He 
went to school there. He is not a product of Miami Beach. He is 
not a product of Miami. He is not a product of Cubans in exile.
    This is a man that was educated in Cuba, and he sees that 
this is a dictator, that this is a country that oppresses human 
rights, that this is a country that allows no one the freedom 
to express themselves, and he has personally seen what they do 
to people who are seeking freedom of expression.
    So they can't blame the Cubans in exile as they blame the 
Cubans in exile for everything. This is a product of this 
communist regime. And I think we should keep that in mind.
    Mr. Smith. Mr. Sires, you are on to ask any questions.
    Mr. Sires. Dr. Biscet?
    [No response.]
    I am sure that the Cuban Government has something to do 
with this, the fact that we can't establish a connection.
    Hello? Dr. Biscet?
    [No response.]
    Mr. Smith. Are there any members that would like to make a 
comment on that extraordinary testimony as we try to reconnect? 
Mr. Rivera.
    Mr. Rivera. Thank you, Chairman, for recognizing me. I 
think Dr. Biscet's response to your question regarding the 
Pope's visit is very telling, and of course very timely right 
now, knowing that that visit by the Pope is literally weeks 
away, because what Dr. Biscet told the world in response to 
your question is that the opposition movement inside Cuba, the 
human rights activists, the heroic dissidents, what they are 
looking for, what they are hoping for from the Pope, and what 
they are hoping for is that the Pope will call for free and 
fair expression and self-determination by the Cuban people as 
expressed through elections; so that the Cuban people can 
decide their future, their destiny, free of repression, free of 
the dictatorships, denial of civil liberties that is occurring 
right now.
    And that is very important, because I understand the 
church, the Catholic Church, when the Pope goes on 
international visits, they try to make those visits as 
apolitical as possible. They are evangelical missions. The 
problem is that in Cuba everything is political.
    It is impossible to have any foreign dignitary, 
particularly one as esteemed and as cherished as the Pope, 
visit Cuba and it be a completely apolitical visit, because the 
Castro regime will use that visit for political purposes, for 
propaganda purposes, which is something that Dr. Biscet clearly 
understands, as he responded to your question.
    And I would hope that the Catholic Church hierarchy, that 
the Pope himself, will not only listen to the hierarchy of the 
church in Cuba and Cardinal Ortega, or be listening to the 
hierarchy of the Castro government, but I would hope they would 
be listening to the future leaders of Cuba, that they will be 
listening to Dr. Biscet and be responsive to the plea that he 
has made in response to your question here today.
    I think it was very clear. You asked him what he would say 
or ask of the Pope, and he said very clearly, ``I would ask the 
Pope to call for free elections, to allow the Cuban people the 
right of self-determination, to allow the Cuban people to move 
forward beyond this tragic reality that has been placed upon 
them for more than 50 years of the Castro dictatorship.''
    So thank you for asking him that question, and thank you to 
Dr. Biscet for his brave and honest and open and courageous 
response. Now it is up to the Catholic Church to respond to Dr. 
Biscet. It is up to the Pope himself to respond to Dr. Biscet. 
Whether he meets with Dr. Biscet or not inside Cuba, we now 
know what the opposition movement in Cuba is hoping for from 
the Pope's visit.
    We know what the brave dissidents, the future leadership of 
Cuba, is expecting from the Catholic Church during the Pope's 
visit. And I would hope they would pay very special attention 
to what Dr. Biscet just said, and I would hope they would be 
responsive to Dr. Biscet's hopes and aspirations and his 
request of the Pope and the Catholic Church.
    Mr. Smith. Mr. Rivera, thank you very much.
    We are still trying to reestablish contact with Dr. Biscet 
in Cuba. It is suspicious, at best, as to why the line was cut, 
and we will continue to try to reestablish that connection.
    Would any of my other colleagues like to make a comment? 
Mr. Engel or anybody on this side?
    Mr. Engel. Let me just say, Mr. Chairman, I think that the 
doctor has extraordinary courage. And I think it is courage 
from people like him that will some day allow Cuba to join the 
list of free nations in the world.
    We, sitting here on our comfortable perches in Washington, 
can't even imagine the brutality that the doctor has been in, 
and even more so the terrible situation that the Cuban people 
have found themselves in for the past half century.
    So, you know, in this job, Mr. Chairman, we have all had 
the good fortune to interact with giants, and the doctor is 
certainly one of those. It takes a special person to be able to 
speak his or her mind courageously, knowing full well that 
there will very well or could very well be a difficult penalty 
to pay.
    But history has been lined with courageous men and women 
who have not been afraid to speak out, and history has shown 
time and time again that those are the people who ultimately 
make the change, get the change. And I have no doubt, again, as 
we will one day visit a free Cuba, that the doctor will one day 
be a citizen of a free Cuba, and it will largely be the 
struggles and the courage that he and others have exhibited 
through the years that will make that so.
    I thank you, and I yield back, Mr. Chairman.
    Mr. Smith. We will now move to our next witness, and we 
welcome him to the subcommittees. We will keep trying to 
reestablish that contact, but it is with great honor that the 
subcommittees receive Normando Hernandez. Normando Hernandez is 
an independent journalist who has dedicated his career to 
providing alternative sources of news and information in Cuba, 
recognized as an extraordinary prisoner of conscience following 
Cuba's Black Spring in 2003, during which dozens of dissidents 
and journalists were imprisoned for their activism.
    Mr. Hernandez was exiled to Spain in 2010, and has since 
resettled in the United States. He has founded several 
organizations devoted to human rights and freedom in Cuba and 
received numerous awards for his work.
    Mr. Hernandez is currently a Reagan-Fascell Fellow at the 
National Endowment for Democracy, or NED, where he is examining 
the Cuban communications monopoly and considering strategies by 
which independent journalists may combat totalitarianism and 
dictatorship.
    We thank you, Mr. Hernandez, for being here, and look 
forward to your testimony.

   STATEMENT OF MR. NORMANDO HERNANDEZ GONZALEZ, INDEPENDENT 
       JOURNALIST, FORMER POLITICAL PRISONER--GROUP OF 75

    Mr. Hernandez. Thank you very much, Chairman Smith, and all 
of the Congressmen that are here today, and everyone else who 
is present. I am very grateful for this invitation, for this 
opportunity.
    A friend this morning told me that my testimony was a bit 
dramatic, and I told her that, unfortunately, my life has been 
dramatic. And not just my life, but the lives of the Cuban 
people.
    I am going to save you my personal presentation, which you 
have so nicely gotten for me. Although I am a fellow of the 
NED, I want to say that I am speaking on my own personal 
capacity today, and the views expressed are entirely my own, 
and that the interruption in communication with Dr. Biscet 
reminds me of my days as an independent journalist in Cuba when 
we were constantly having our right to communication and 
freedom of speech violated.
    And that is why I want to begin by telling you that the 
violence on behalf of the military junta in Cuba against my 
people increases every day. The Commission from Cuba of Human 
Rights and National Reconciliation, an independent organization 
inside of Cuba, confirmed 631 arbitrary arrests in the month of 
January of this year. This is an increase of 135 percent when 
it is compared to last year, when last January there were only 
268 arrests.
    In the streets of Cuba, human rights defenders, especially 
women, are kicked and beaten in the head by political police, 
as is the case of Yris Tamara Perez Aguilera, who has been 
knocked unconscious due to the different blows to her head. The 
Ladies in White are also victims of repression.
    Many have reported that while they were detained by the 
police they undress them, shout obscenities at them, they touch 
their genitals, and they threaten that they will rape them. We 
are mourning the death of dissident Juan Wilfredo Soto, who in 
May 2011 was kicked by a policeman to the point that he died 2 
days later as a result of that beating.
    In October 2011, just 5 months after his death, they 
murdered Laura Pollan Toledo, who was the leader of the Ladies 
in White. And it has only been 28 days since the murder of the 
prisoner of conscience, Wilmar Villar Mendoza, after 50 days of 
being on a hunger strike.
    I say ``murdered'' because all of these deaths happened 
under the custody of the police and were completely avoidable. 
Three dissidents were killed in the last 8 months, only 90 
miles away from the most democratic country in the world.
    I would not be honest if I didn't condemn today the Cuban 
military junta and call for justice for the martyrs and the 
people of Cuba. For my part, I would say that I have been in 
four Cuban prisons. I came into a prison being completely 
healthy, but now I live with various diseases. And I live 
without my gall bladder because of torture that I suffered 
during my final 2 years in prison.
    Nevertheless, today I don't want to speak any more about 
myself, but instead about the people who are in this same 
moment being tortured. I want to speak not only of the 
political prisoners of Cuba, but also of the nearly 100,000 
prisoners who live in poor, and of over 250 prisons and labor 
camps that are in Cuba.
    I want to describe some of the direct and indirect tortures 
that the people of Cuba suffer. The little chair or little 
seat--this is a torture that Dr. Biscet described for you 
before. It is one that consists of handcuffing the hands of a 
prisoner behind his back and uniting them with another set of 
handcuffs that are at the prisoner's feet.
    They throw the prisoner on his side in the cold, wet, or 
humid floor during hours. At this time, he is easy prey for any 
insects who swarm in these dens of perdition--rats, mosquitoes, 
roaches. They do with these prisons whatever they like--these 
prisoners, sorry.
    There is another torture that is called the crucifixion. It 
consists of handcuffing a prisoner completely naked, to the 
bars of the torture chamber with his arms open--exposed open in 
the form of a cross. To these prisoners, they throw water over 
their bodies in times of cold weather, and the mosquitos suck 
whatever blood they can.
    I still have fresh in my mind the screams of the individual 
prisoners that were being tortured. I don't know if one day I 
will be able to forget them. But these forms of torture are 
nothing compared to what I believe is the worst thing that 
happens in Cuban jails--the sadism, negligence, and the cruelty 
of the prison guards and officials that are in charge of the 
prisons in Cuba. They leave the prisoners to attack each other, 
so that they can demand the basic human rights that they should 
already be afforded.
    Out of desperation, they inject urine or mixed feces into 
any part of their body. They sever fingers from their hands. 
They melt plastic onto their extremities. They make deep and 
long cuts with razor blades. And they even insert cold steel 
needles into their eyes. Most of them lose their lives, and 
others are injured for the rest of their days.
    Honorable members of this committee, everything that I tell 
you, both about Cuban political prisoners, dissidents, peaceful 
opposition members both inside and outside of Cuba, independent 
journalists like me, and the true civil society of Cuba, we 
have denounced for many years to many international 
organizations of human rights defense. These organizations, 
knowing of our testimonies, they have implored for the respect 
of human rights in Cuba.
    Mr. President, it is the time for Cuba. I strongly urge you 
to condemn this deplorable situation in which the fundamental 
rights of Cubans are being violated. Let us not permit for the 
best sons and daughters of our country to continue to be 
tortured and killed.
    Without the international support for the peaceful 
opposition in Cuba, the Castro brothers will continue to 
repress their people, and they will end up massacring them, 
just like it is happening today with the people of Syria.
    Please continue to support the dissident movement, the 
peaceful Cuban opposition, and the independent press, who with 
great courage face the totalitarian system that has asphyxiated 
us for 53 years. We Cubans are very conscious that we need to 
fix our own country's problems ourselves, but we need the help 
of the free world, and specifically your help, just as South 
Africa needed your help during its time.
    Honorable members of this committee, and honorable members 
of the United States Congress of the United States of America, 
let us not forget that for Cuba this is the time.
    Thank you very much.
    [The prepared statement of Mr. Hernandez follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Hernandez, thank you very much for your 
absolutely compelling testimony, for reminding this committee 
that the sadism that is commonplace and prevalent in Cuban 
jails continues unabated, and for describing what is known as 
the ``crucifixion'' and the ``little seat'' and these other 
forms of sadistic behavior that so many political prisoners 
have suffered.
    I would point out that every delegation, congressional 
delegation, lawmakers from other countries, they need to insist 
on going to the prisons. Frank Wolf, Congressman from Virginia, 
and I have tried repeatedly to go to Cuba--have been denied a 
visa each time--with the express purpose of going to the 
prisons. The International Committee for the Red Cross has 
tried repeatedly to go and investigate comprehensively the 
prisons and the mistreatment of prisoners in Cuba, and they 
have been denied.
    So to those who come back to the United States after 
visiting with Fidel Castro and Raul and others, as the 
Congressional Black Caucus did when some seven members traveled 
down, I and others gave them information similar, but not 
identical, to what you have conveyed to us today and said, 
``Please raise these issues.'' And they didn't. As a matter of 
fact, they came back and gushed about how impressed they were 
by Raul and Fidel Castro. They were kind men and nice men, and 
these are the kind of things that they impose upon political 
prisoners.
    I would point out that the Cuban Government ratified the 
Torture Convention in 1995. This is obviously torture, 
degrading and cruel, as you have pointed out. It is time for 
the U.N. to do even more to hold them to account.
    So since I got to ask questions before, I would like to 
yield to Mr. Sires and my other colleagues for questions that 
they might have.
    Mr. Sires. Thank you, Mr. Chairman. Mr. Hernandez, thank 
you very much for being here. I met you once before, and I have 
been very impressed ever since I met you--your courage and your 
determination.
    Mr. Hernandez. Gracias.
    Mr. Sires. You know, one of the things that people point 
out--and you alluded to this--you know, they say that, well, 
there are only 200 political prisoners, or there are only 120 
political prisoners. Yes, but they arrest 631 in 1 month, 268 
of the others?
    And it is what I keep telling people--that they may 
characterize you as a political prisoner, but there are other 
thousands of people who have been arrested for political 
reasons, who are expressing themselves. Can you comment to 
that?
    Mr. Hernandez. Yes. First, with your permission, I wanted 
to say thank you so much for your opinion of me, your good 
opinion of me. But, first, I want to respond to Congressman 
Smith why these people who go to Cuba come back with this 
image.
    The problem is that Cuba is not just one alone; there are 
many Cubas. There is one Cuba for tourists, there is one Cuba 
for people who go for an official visit, there is one Cuba for 
regular prisoners, the criminals, and one Cuba for prisoners of 
political conscience.
    There is another Cuba for government representatives, and 
there is one Cuba--the one that suffers--of the general Cuban 
public. That is why every time that someone goes to Cuba I 
recommend that they don't accept that the government conduct 
their visit for them or plan their visit for them, but to have 
autonomy. And that is why these people come back so 
misinformed.
    Congressman Sires, to talk about the list of prisoners in 
Cuba is to minimalize the situation. I have to say that there 
are more than 11 million people who are prisoners in Cuba, 
because Cuba itself is a prison.
    But if we are going to be more specific, we can go to LEI 
61 or the civil and penal code in Cuba. In Title 11 of the 
civil and penal code, there is a stipulation of someone being 
dangerous to the government. This means that someone doesn't 
have to commit a real offense in order to be taken into prison. 
Today people who are taken into prison or sanctioned under this 
law, there exists about 5,000 in Cuba.
    Mr. Smith. I have just been informed that Dr. Biscet is 
back on the line, so, Mr. Sires, if you have a question for----
    Mr. Sires. Dr. Biscet, this is Albio Sires. I just want to 
inform you that I just spoke to our Chairman Smith, and we are 
going to send a letter to the Pope, in the hopes that the Pope 
will take time when he goes to Cuba and meets with you.
    Dr. Biscet. Thank you very much. I appreciate that.
    Mr. Sires. Now, Dr. Biscet, are you concerned now when you 
leave to go home that you are going to be arrested?
    Dr. Biscet. Everything is possible. It could happen at any 
time because we are under constant supervision.
    Mr. Sires. Thank you.
    Ms. Schmidt. Yes, thank you, Dr. Biscet. This is 
Congresswoman Jean Schmidt from Ohio. You mentioned your fear 
that there would soon be more problems with Cuba and the United 
States, similar to the Cuban missile crisis in the 1960s. Could 
you elaborate?
    Dr. Biscet. It is common knowledge that the Cuban 
Government has made strategic alliances with Venezuela, with 
other countries, in order to be dangerous toward the American 
public. We believe that because of the closeness of Cuba to the 
United States that that proximity creates a problem.
    These alliances with Iran and Venezuela, these are 
countries that have clearly stated that they are enemies for 
the United States, and that the fear comes from these 
alliances.
    Ms. Schmidt. Dr. Biscet, would these strikes be in the 
nature of chemical, biological, or nuclear warfare?
    Dr. Biscet. Cuba has developed biological and chemical 
weapons.
    In this case, I am only talking about nuclear missiles.
    Ms. Schmidt. You are thinking nuclear?
    Dr. Biscet. Yes.
    Ms. Schmidt. Dr. Biscet, one follow up, is this your 
personal belief, or do you have evidence to support your 
belief?
    Dr. Biscet. It is my conclusion from the information that 
is general in the international community but also from what I 
have derived from the communications within Cuba.
    Ms. Schmidt. Thank you.
    Mr. Smith. Mr. Rivera.
    Mr. Rivera. [Speaks in Spanish.] Mr. Chairman, I am just 
telling Dr. Biscet how honored it is for me to speak with him 
today, and express mine and the appreciation of all freedom-
loving people for the great sacrifices that he has suffered in 
Cuba on behalf of the cause of a free and democratic Cuba.
    [Asks questions in Spanish.] Mr. Chairman, I am asking Dr. 
Biscet what he sees could happen after the Pope's visit, the 
upcoming visit, and if he can foresee any change with respect 
to what will be happening with the opposition movement, the 
dissident leaders, the human rights activists, inside Cuba.
    Dr. Biscet. We are hoping that we will receive spiritual 
support, but in the political camp we fear that there is not 
going to be a very positive result for the Cuban people. The 
last time that John Paul II was here they were developing 
various civil and penal laws in order to continue to repress 
the Cuban people.
    Mr. Rivera. [Asks questions in Spanish.] Mr. Chairman, I am 
asking what the perspective is of the human rights activists 
and the opposition leaders. With respect to Raul and Fidel 
being in charge right now, what is their expectations for the 
future under the regime right now?
    Dr. Biscet. We are confident that there will be no change 
and no benefits for the people with the two brothers there. But 
we also know that we cannot wait for someone to die to create 
change. So we will create change on our own. We are hoping that 
we will have the capacity to create non-violent coercion and 
pressure in order to actually install that political change 
ourselves.
    Mr. Rivera. Mr. Hernandez Gonzalez?
    Mr. Hernandez. I want to send a great hug to my friend and 
my brother, Dr. Biscet. It is very sad for the history of my 
country in order that there has to be the death of the 
individual who is martyring the people in order to create a 
change. That is why today the civic, non-violent opposition in 
Cuba is going from passive to active.
    And there are many organizations all over Cuba that are 
taking the space that has been prohibited to these 
organizations along the span of this regime in Cuba. I speak 
about this space in the public square, and there are a lot of 
people with a lot of courage and intelligence who are putting 
all of their efforts into getting rid of this totalitarian 
regime.
    Among them, we have Dr. Biscet today speaking to us. We 
have Arturo Garcia Perez Santoni; on the front of organization 
for civic movement, Mr. Tamayo; we have Mr. Garcia in the part 
of Santiago in Cuba. And I am not going to continue because the 
list would be interminable.
    But we have to be conscious of the fact that all of these 
people that are on the streets, taking the risk of losing their 
liberty and losing their lives, need the support of all of us, 
and mostly of this Congress.
    Mr. Smith. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you. I applaud and admire your 
patriotism, your courage, and determination to shine the light, 
Dr. Biscet and Mr. Hernandez. I wonder about, particularly as a 
journalist, and you, Doctor, the press, both in the United 
States and Europe, lack the outrage that I think is necessary 
to help bring the pressure on here. Do you have any comments on 
that?
    Mr. Hernandez. It needs to be recognized of the Cuban 
Government that it has a campaign of propaganda for itself. 
And, unfortunately, we haven't been able to be intelligent 
enough to create a counterpropaganda the way that it should be. 
Unfortunately, the people who have the power to create the most 
pressure against the Cuban Government are not really conscious 
of what is really happening in Cuba, because they speak 
English.
    And, unfortunately, the press that is controlled, mostly 
because of the left, they are romantics, don't give the 
necessary coverage, both in context and comprehensively, that 
the Cuban cause needs to create a true conscience to the people 
who can create this pressure for the Cuban Government.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Smith. Mr. Marino?
    [No response.]
    Yes, Mr. Rivera.
    Mr. Rivera. If I could followup, Chairman. [Asks questions 
in Spanish.] Mr. Chairman, I am asking Dr. Biscet what he feels 
about what seems to be a new practice by the Cuban dictatorship 
to, instead of imprisoning activists for decades or years long, 
to arrest them for days or weeks or months and release them--an 
arrest and release policy. [Asks questions in Spanish.]
    Dr. Biscet. We have been suffering this change in policy 
for a very long time, in the way that they arrest people. It is 
a form of terror and political pressure for the individuals on 
the island. It may be imprisonment for a short amount of time, 
but it has lasting effects. This amount of fear has created a 
sense of tired--has made the people very, very tired, and has 
had the chilling effect that the government has tried to--has 
intended to make.
    Either way, individuals in Cuba still don't have freedom of 
association, freedom of the press, freedom of speech, all of 
these liberties that we enjoy here in the United States. And I 
am hoping that we will be able to impose this change in our 
society.
    Mr. Rivera. Gracias, Dr. Biscet. Thank you, Mr. Chairman.
    Mr. Smith. Thank you. Before we close----
    Dr. Biscet. We are hoping that we will have the help of all 
of the individuals who love liberty. We need to create this 
change to stop this great threat that has existed in Cuba for 
over 50 years. That is why I am proposing this massive non-
violent resistance to be able to impulse this change.
    But, first, it would be much more effective if the 
international community that loves liberty would be willing to 
support us in creating this change. We have many examples in 
the international community of individual people who were able 
to create this change and create a true resistance to their 
tyrannic governments.
    Mr. Smith. Let me just conclude. Earlier this week I 
chaired a hearing on human rights abuse in China, and back in 
1994 when Bill Clinton de-linked trade from human rights, there 
were people on both sides of the aisle who thought somehow that 
would very quickly morph into political and religious freedoms 
and human rights freedoms.
    None of that happened. It has gotten demonstrably worse. 
And people who were for that will now say, at least privately, 
that de-linking human rights from trade was a horrific mistake. 
There are some who say we need to provide unilateral 
concessions to the Cubans, to the Cuban Government.
    And, Mr. Hernandez, you might want to take this question. I 
myself have offered amendments in the past in the Congress that 
would have lifted the travel ban if, and only if, political 
prisoners were released and free and fair elections were held. 
Your thoughts on the conditionality of human rights and any 
concessions toward the government by the Obama administration, 
how important it is to have those conditions?
    I would just add to that, before you answer, that this 
flawed assumption not only has played out with regards to 
China, which has become a brutal dictatorship where torture is 
endemic, but it has also played out more recently in Vietnam 
when a bilateral trade agreement was agreed to between the 
United States and Vietnam.
    Almost to the day after they got their bilateral trade 
agreement, they began a serious crackdown on dissidents and 
religious defenders. Trade without human rights conditions has 
become a lifeline to the dictatorship. Mr. Hernandez, your 
thoughts?
    Mr. Hernandez. Any type of pressure, all the pressure that 
you can create against a totalitarian system will advance 
democracy and freedom to that country. But these pressures need 
to be united to support in all aspects of the word to the 
dissidents and opposition that exist within that country.
    Mr. Smith. I believe we have lost Dr. Biscet again--the 
connection. So if my colleagues have anything further they 
would like to add?
    [No response.]
    Mr. Hernandez, any final thoughts that you would like to 
add before we conclude?
    Mr. Hernandez. Yes. I want to thank you, Congressman Smith, 
to the Congressmen here present, and the subcommittee in 
general. And I want to remind you--I don't want this to become 
a theme, but I do want to remind you that the time for Cuba is 
now.
    Mr. Smith. On that profound sentiment, the hearing is 
adjourned.
    [Whereupon, at 3:55 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
